Docket No. 20-1199
Students for Fair Admissions, Inc. v.
President and Fellows of Harvard College
SERVICE LIST
WILLIAM SPENCER CONSOVOY
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
Telephone: (703) 243-9423
E-Mail: will@consovoymccarthy.com
Counsel for Petitioner
SETH P. WAXMAN
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
Telephone: 202-663-6800
E-Mail: Seth.Waxman@wilmerhale.com
Counsel for Respondent

